   June 8, 2005




Infrastructure and Environment

Washington Headquarters Services Data
Call Submissions and Internal Control
Processes for Base Realignment and
Closure 2005
(D-2005-079)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
BRAC                  Base Realignment and Closure
COBRA                 Cost of Base Realignment Actions
DA&M                  Director, Administration and Management
DoD OIG               Department of Defense Office of Inspector General
DWO                   Defense-Wide Organizations
HSA                   Headquarters and Support Activities
ICP                   Internal Control Plan
JCSG                  Joint Cross Service Group
JPAT 7                Joint Process Action Team Criterion Number 7
OSD                   Office of the Secretary of Defense
WHS                   Washington Headquarters Services
                           INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704



                                                                           June 8,2005
MEM0RANI)IJM FOR DIRECTOR, WASHINGTON HEADQUARTERS SERVICES

SUBJECT: Report on Washington Headquarters Services Data Call Submissions and
         Internal Control Pro~essesfor Base Realignment and Closure 2005 (Report
         NO. D-2005-079)

        We are providing this report for information and use. Washington Headquarters
Services provided comments. We considered management comments on the draft of this
report when preparing the final report. The complete text of the comments is in the
Managements Comments section of the report.

       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Deborah L. Culp at (703) 604-9335 (DSN 664-9335) or Ms. Lisa M. Such at (703)
604-9284 (DSN 664-9284). See Appendix B for the report distribution. The team
members are listed inside the back cover.
                              By direction of the Deputy Inspector General for Auditing:


                           h244Lqd4*
                                         Richard B Tolliffe
                                     Assistant Inspector General
                                       Contract Management
                    Department of Defense Office of Inspector General
Report No. D-2005-079                                                                  June 8, 2005
      (Project No. D2004-D000CG-0110.000)

                     Washington Headquarters Services Data Call
                     Submissions and Internal Control Processes
                       for Base Realignment and Closure 2005

                                       Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel, Washington Headquarters Services (WHS) management personnel, and
anyone interested in the Base Realignment and Closure (BRAC) process should read this
report. The report discusses the validity, integrity, and supporting documentation of the
data provided by WHS for BRAC 2005.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One—Policy,
Responsibilities, and Procedures,” April 16, 2003, which stated that the Department of
Defense Office of Inspector General would review the accuracy of BRAC data and the
certification process.

The BRAC 2005 process was divided into the following data calls: capacity analysis,
supplemental capacity, military value, Cost of Base Realignment Actions, Joint Process
Action Team Criterion Number 7, and scenario specific. The supplemental capacity,
military value, Cost of Base Realignment Actions, and Joint Process Action Team
Criterion Number 7 data calls were collectively known as the second data call. We
issued site memorandums for the capacity analysis data call, second data call, and
revalidation of the capacity analysis data call to summarize the results of the site visits.
This report summarizes issues related to the WHS BRAC 2005 process as of April 5,
2005.

The WHS is a Defense-Wide Organization 1 responsible for providing administrative and
operational support to DoD. The Director, WHS also serves as the Deputy Director for
Administration and Management in the Office of the Secretary of Defense. WHS is
located in the Pentagon and has 13 other offices in the Washington, D.C., area. Initially,
the WHS Planning and Evaluation Directorate was responsible for collecting and
submitting BRAC responses for all WHS offices. However, during the second data call,
these responsibilities were transferred to the WHS Administration and Program Support
Directorate Staff Offices. In addition to these two offices, we visited the Financial
Management Directorate and Human Resources Directorate during the review.

1
    Defense-Wide Organization is a collective term used for 11 Defense Organzations.
Results. We evaluated the validity, integrity, and supporting documentation of WHS
BRAC 2005 data and compliance with the Office of the Secretary of Defense and the
Defense-Wide Organizations internal control plans for the capacity analysis data call, the
second data call, and the scenario specific data calls. Once corrections were made, WHS
BRAC 2005 data were generally supported, complete, and reasonable. However, as of
April 5, 2005, for the capacity analysis data call, 9 of the 97 2 responses were partially
supported and 3 responses were unsupported. For the second data call, 2 of the 71
responses were partially supported and 9 were unsupported. For the scenario specific
data calls, 3 of the 12 scenario specific data calls were partially supported. We cannot
determine if these partially supported or unsupported questions had a material effect on
the BRAC 2005 analysis for WHS.

The WHS data collection processes for each of the data calls generally complied with the
Office of the Secretary of Defense and Defense-Wide Organizations internal control
plans, and the Defense-Wide Organizations internal control plan properly incorporated
and supplemented the Office of the Secretary of Defense internal control plan. However,
WHS had seven immaterial noncompliance issues with the internal control plans that
should not affect the integrity of WHS data for use in BRAC 2005 analysis.
Management Comments and Audit Response. We provided a draft of this report on
May 2, 2005. Although no comments were required, WHS provided comments that
stated that the draft report contained two errors. WHS stated that supporting
documentation for Cost of Base Realignment Actions question number 1501 was
available for DoD OIG review during the February 17, 2005, site visit. During our final
site visit, WHS did not inform us that supporting documentation had been obtained for
the Cost of Base Realignment Actions question number 1501. Therefore, we did not
revalidate Cost of Base Realignment Actions question number 1501. In addition, WHS
stated that the methodology used to collect the personnel information was provided for
scenario specific data call HSA-0053. In response to management comments, we
corrected the report to reflect that an inadequate methodology was provided for scenario
specific data call HSA-0053. See the Finding section of the report for a discussion of
management comments and the Management Comments section of the report for the
complete text of the comments.




2
    Headquarters and Support Activities Joint Cross Service Group determined that partially supported and
    unsupported question numbers 347, 352, 358, 360, 362 through 366, 369, 371, 376, 379, 382, 383, 385
    through 387, 393, 478, and 481 were no longer needed or would not be used for its analysis. As a result,
    we determined that no further action was required on behalf of Washington Headquarters Services for
    these questions.




                                                       ii
Table of Contents

Executive Summary                                                        i

Background                                                               1

Objectives                                                               3

Finding
     Washington Headquarters Services BRAC 2005 Data Call Submissions
       and Internal Control Processes                                    4

Appendixes
     A. Scope and Methodology                                           13
         Management Control Program Review                              16
         Prior Coverage                                                 16
     B. Report Distribution                                             17

Management Comments
     Washington Headquarters Services                                   19
Background
    Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
    Closure and Realignment Act of 1990,” as amended, establishes the procedures
    under which the Secretary of Defense may realign or close military installations
    inside the United States and its territories. The law authorizes the establishment
    of an independent Commission to review the Secretary of Defense
    recommendations for realigning and closing military installations. The Secretary
    of Defense established and chartered the Infrastructure Executive Council and the
    Infrastructure Steering Group as the Base Realignment and Closure (BRAC) 2005
    deliberative bodies responsible for leadership, direction, and guidance. The
    deadline for the Secretary of Defense to submit recommendations to the
    independent Commission was May 16, 2005.

    Joint Cross Service Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, was to examine and implement opportunities for greater
    joint activity. The Office of the Secretary of Defense (OSD) established seven
    Joint Cross Service Groups (JCSG): Education and Training, Headquarters and
    Support Activities (HSA), Industrial, Intelligence, Medical, Supply and Storage,
    and Technical. The JCSGs addressed issues that affect common business-
    oriented support functions, examined functions in the context of facilities, and
    developed realignment and closure recommendations based on force structure
    plans of the Armed Forces and on selection criteria. To analyze the issues, each
    JCSG developed data call questions to obtain information about the functions that
    they reviewed.

    BRAC Data Calls. The BRAC 2005 process was mandated for the United States
    and its territories and was divided into the following data calls: capacity analysis,
    supplemental capacity, military value, Cost of Base Realignment Actions
    (COBRA), Joint Process Action Team Criterion Number 7 (JPAT 7), and scenario
    specific. The supplemental capacity, military value, COBRA, and JPAT 7 data
    calls were collectively known as the second data call. The Services, Defense
    agencies, and Defense-Wide Organizations (DWO) used either automated data
    collection tools or a manual process to collect data call responses. Each data call
    had a specific purpose as follows.

           •   The capacity analysis data call gathered data on infrastructure, current
               workload, surge requirements, and maximum capacity.

           •   The supplemental capacity data call clarified inconsistent data
               gathered during the initial capacity analysis data call.

           •   The military value data call gathered data on mission requirements,
               land and facilities, mobilization and contingency, and cost and
               manpower.




                                          1
                    •    The COBRA data call gathered data to develop costs, savings, and
                         payback (formerly known as return on investments) of proposed
                         realignment and closure actions.

                    •    The JPAT 7 data call gathered data to assess the community’s ability
                         to support additional forces, missions, and personnel associated with
                         individual scenarios. 1

                    •    The scenario specific data call gathered data related to scenarios for
                         realignment or closure.

           Department of Defense Office of Inspector General Responsibility. The
           Under Secretary of Defense for Acquisition, Technology, and Logistics’
           memorandum “Transformation Through Base Realignment and Closure (BRAC
           2005) Policy Memorandum One—Policy, Responsibilities, and Procedures,”
           April 16, 2003, required the Department of Defense Office of Inspector General
           (DoD OIG) to provide internal control plan (ICP) development and
           implementation advice, review the accuracy of BRAC data, and evaluate the data
           certification processes. In addition, the memorandum required DoD OIG
           personnel to assist the JCSGs and DoD Components as needed. This report
           summarizes the results of the DoD OIG efforts related to the Washington
           Headquarters Services (WHS) BRAC 2005 process.

           DWOs. DWO is a collective term for 11 Defense Organizations. 2 WHS is one of
           the 11 DWOs. The OSD Director, Administration and Management (DA&M) led
           the DWO BRAC 2005 process and was responsible for collecting and submitting
           BRAC data for the DWOs. OSD DA&M was the primary data repository for all
           DWO data collections and requests, and assembled and forwarded BRAC-related
           data to the OSD BRAC Office and the JCSGs.

           ICPs. The DWO ICP outlined internal control procedures designed to ensure the
           accuracy, completeness, and integration of all information and analytical
           processes used in the BRAC 2005 process. Before the BRAC data calls were
           released, OSD required the Services, Defense agencies, and DWOs to prepare
           ICPs that incorporated and supplemented the OSD ICP. The OSD ICP was issued
           in the Under Secretary of Defense for Acquisition, Technology, and Logistics’
           memorandum “Transformation Through Base Realignment and Closure
           (BRAC 2005) Policy Memorandum One—Policy, Responsibilities, and
           Procedures,” April 16, 2003. OSD DA&M prepared the “Defense-Wide
           Organizations Internal Control Plan for the 2005 Base Realignment and Closure
           Process,” dated January 15, 2004. The overall DWO ICP, and Appendixes L


1
    A scenario is a description of one or more potential realignment or closure actions identified for formal
    analysis by either a JCSG or a Military Department.
2
    The 11 organizations that comprise the DWOs are OSD, Joint Chiefs of Staff, DoD OIG, Office of
    Economic Adjustment, DoD Education Activity, Defense Human Resources Activity, TRICARE
    Management Activity, American Forces Information Service, Defense Prisoner of War/Missing
    Personnel Office, Defense Technology Security Administration, and Washington Headquarters Services.
                                                        2
           and M applied to the 11 DWOs. Each DWO was responsible for preparing an
           organization-specific appendix to supplement the overall DWO ICP. Appendix C
           of the DWO ICP applied to WHS. The DWO ICP was updated on August 2,
           2004. For the capacity analysis data call, WHS used a manual data collection
           process, and for the second data call, WHS used the data gathering tool. 3 For the
           second and scenario specific data calls, WHS used the August 2, 2004, DWO
           ICP.

           WHS. WHS is responsible for providing administrative and operational support
           to DoD. The Director, WHS also serves as the Deputy Director for
           Administration and Management in the Office of the Secretary of Defense. WHS
           is located in the Pentagon and has 13 other offices in the Washington, D.C., area
           at Crystal Gateway 1, 2, and 3; Crystal Mall 2, 3, and 4; Crystal Gateway North;
           1401 Wilson Boulevard; 400 Army Navy Drive; Rosslyn Plaza North; and the
           Polk Building in Arlington, Virginia; Hoffman I, Alexandria, Virginia; and
           Skyline VI, Falls Church, Virginia. Initially, the WHS Planning and Evaluation
           Staff Offices were responsible for collecting and submitting WHS BRAC
           responses for all of WHS. These responsibilities were subsequently transferred to
           the WHS Administration and Program Support Directorate Staff Offices. In
           addition to these two offices, we also visited the Financial Management
           Directorate and Human Resources Directorate.


Objectives
           The overall objective of the audit was to evaluate the validity, integrity, and
           supporting documentation of data that WHS collected and submitted for the
           BRAC 2005 process. In addition, we evaluated whether WHS complied with the
           OSD and DWO ICPs. This report is one in a series on data call submissions and
           internal control processes for BRAC 2005. See Appendix A for a discussion of
           the scope and methodology, our review of management controls, and prior
           coverage related to the objectives.




3
    A modified Microsoft Access tool for those not using an automated data collection tool.
                                                       3
                   Washington Headquarters Services
                   BRAC 2005 Data Call Submissions and
                   Internal Control Processes
                   After corrections were made, WHS responses to the BRAC 2005 data
                   calls were generally supported, complete, and reasonable. However, for
                   the capacity analysis data call, 9 of the 97 4 responses were partially
                   supported and 3 responses were unsupported. Also, for the second data
                   call, 2 of the 71 responses were partially supported and 9 were
                   unsupported. Furthermore, as of April 5, 2005, for the scenario specific
                   data calls, 3 of the 12 scenario specific data calls were partially supported.
                   We cannot determine if these questions have a material effect on the
                   BRAC 2005 analysis for WHS. The WHS data collection processes for
                   each of the data calls generally complied with the OSD and DWO ICPs,
                   and the DWO ICP properly incorporated and supplemented the OSD ICP.
                   However, WHS had seven immaterial noncompliance issues with the ICP,
                   which should not impact the integrity of the WHS data for use in BRAC
                   2005 analysis.


WHS BRAC 2005 Data Call Submissions
           The WHS data responses to the BRAC 2005 were generally supported, complete,
           and reasonable once corrections were made. For the capacity analysis, second,
           and scenario specific data calls, WHS provided either an answer or a “Not
           Applicable” response to the questions. A “Not Applicable” response was
           provided when either OSD DA&M or WHS determined that the question did not
           apply to WHS. To ensure accuracy, we compared the WHS responses to
           supporting documentation and reviewed the responses to ensure reasonableness
           and completeness. We also reviewed the “Not Applicable” responses for
           reasonableness.
           Capacity Analysis Data Call. After corrections were made, WHS responses to
           the capacity analysis data call were generally supported, complete, and
           reasonable; however, 9 of 97 responses remained partially supported and 3
           responses remained unsupported. Specifically, with the exception of these 12
           responses, WHS responses were supported, complete, and reasonable once
           corrections were made; and “Not Applicable” responses were reasonable.

           OSD DA&M directed the DWOs to answer 75 of the 752 capacity analysis data
           call questions identified as applicable to the DWOs by HSA JCSG. The

4
    HSA JCSG determined that partially supported and unsupported question numbers 347, 352, 358, 360,
    362 through 366, 369, 371, 376, 379, 382, 383, 385 through 387, 393, 478, and 481 were no longer
    needed or would not be used for its analysis. As a result, we determined that no further action was
    required on behalf of WHS for these questions.
                                                     4
           HSA JCSG identified an additional two questions as applicable for WHS.
           OSD DA&M also directed WHS to review the remaining 675 questions to
           determine if any other questions were applicable to WHS. WHS reviewed the 77
           questions and the remaining questions, and identified only 39 of 77 questions and
           an additional 20 of the remaining questions as applicable to WHS. As a result,
           WHS provided either a response or a “Not Applicable” response to 97 capacity
           data call questions. WHS provided a response other than “Not Applicable” to 59
           of these capacity analysis data call questions. WHS provided a “Not Applicable”
           response to the remaining 38 questions.

           We evaluated the responses and supporting documentation and identified those
           lacking reasonable support and those that were inconsistent with the supporting
           documentation provided. Initially, we determined that 10 responses were
           adequately supported, 11 responses were partially supported, and 38 responses
           were unsupported. The 38 “Not Applicable” responses were reasonable. Based
           on our review and discussions with WHS BRAC officials, WHS corrected
           responses, processed change adjudications, 5 and agreed to continue correcting its
           initial submission and collecting supporting documentation. WHS stated it would
           forward the responses to OSD DA&M; however, we did not verify that the
           responses made it into the OSD Database.

           We revalidated the revisions and supporting documentation after WHS corrected
           the responses and provided additional supporting documentation. Initially, we
           focused our revalidation efforts on reviewing the 11 partially supported and 38
           unsupported WHS responses from the initial capacity analysis data call
           submission. Subsequently, HSA JCSG informed us that WHS responses to 21 6
           previously partially supported and unsupported finance and accounting and
           civilian personnel office questions were no longer needed or would not be used
           for its analysis. As a result, we determined that no further action was required on
           behalf of WHS for those 21 questions. Therefore, we evaluated the responses and
           supporting documentation for the remaining 28 questions. We verified and
           concurred with the revisions, with the exception of nine responses that remained
           partially supported and three responses that remained unsupported. WHS stated it
           would forward the revised responses to OSD DA&M; however, we did not verify
           that the revised responses made it into the OSD Database. As of February 17,
           2005, the following questions remained partially supported or unsupported:
                        •   WHS responses to question numbers 211 and 212 were only
                            partially supported. We were unable to fully validate the data
                            because WHS did not provide a documented methodology of how
                            responses to Actual Total Stationary Source Emissions Inventory
                            and Major Source Threshold or Major Modification Threshold
                            were calculated.


5
    A change adjudication is the process for amending and documenting the correction of certified responses
    in the BRAC data.
6
    Question numbers 347, 352, 358, 360, 362 through 366, 369, 371, 376, 379, 382, 383, 385 through 387,
    393, 478, and 481.
                                                      5
          •   WHS responses to question numbers 283, 292, and 298 were
              unsupported. We were unable to fully validate and determine the
              reasonableness of the responses. WHS provided incomplete and
              inadequate supporting documentation for industrial wastewater
              outflow, potable water consumption, and sanitary sewage outflow.
              WHS was unable to obtain all of the necessary records from
              Arlington County. Therefore, WHS made assumptions in
              answering the questions and did not provide a written methodology
              for its calculations.

          •   WHS response to question number 310 was only partially
              supported. We were unable to fully validate the response. WHS
              did not provide supporting documentation indicating that some of
              the General Services Administration leased space that was reported
              was actually occupied by DoD tenants.

          •   WHS responses to question numbers 446, 461, 462, and 480 were
              partially supported. WHS was unable to provide adequate
              supporting documentation for on-board contractors and detailees.

          •   WHS response to question number 482 was partially supported.
              WHS did not provide supporting documentation for civilian
              population serviced throughput, or number of automated
              phone/internet transactions throughput.

          •   WHS response to question number 621 was partially supported.
              We were unable to reconstruct the WHS responses because WHS
              provided an inadequate methodology for calculating Electrical
              Supply and Natural Gas Normal Steady State Daily Loads, Peak
              Daily Demands for FY 2003, and Peak Daily Demands for
              FY 2000 through FY 2003.

Second Data Call. After corrections were made, WHS responses to the second
data call were generally supported, complete, and reasonable; however, 2 of 71
responses were partially supported and 9 were unsupported. Specifically, with
the exception of these 11 responses, WHS responses were supported, complete,
and reasonable once corrections were made; and “Not Applicable” responses
were reasonable.

OSD DA&M identified 69 questions as applicable to WHS and directed WHS to
review the remaining questions to determine if any other questions were
applicable. WHS reviewed the remaining questions and identified an additional
two questions as applicable to WHS. As a result, WHS provided a response to 71
second data call questions. WHS provided a response other than “Not
Applicable” to 50 second data call questions. WHS provided a “Not Applicable”
response to the remaining 21 questions. WHS leased facilities were required to
answer JPAT 7 and COBRA data call questions; however, the WHS BRAC
official provided a single response to include all WHS leased facilities. We
evaluated the responses and supporting documentation and identified those
                                    6
           lacking reasonable support and those that were inconsistent with the supporting
           documentation. Based on our review and discussions with WHS BRAC officials,
           WHS corrected responses, processed change adjudications, and provided
           additional supporting documentation to correct the issues identified during our
           review. We verified and concurred with the revisions, with the exception of two
           responses that remained partially supported and nine responses that remained
           unsupported. WHS stated it would forward the responses to OSD DA&M;
           however, we did not verify that the responses made it into the OSD Database. As
           of February 17, 2005, the following questions remained partially supported
           or unsupported:

               •    The WHS response to COBRA question number 1501 was unsupported.
                    WHS did not provide any supporting documentation for the square
                    footage of existing facilities.

               •    The WHS response to HSA JCSG military value question number 1905
                    was partially supported. We were unable to fully validate the response
                    because WHS provided inadequate methodologies and unreliable
                    supporting documentation for customers, support personnel, and
                    privatized/outsourced functions.

               •    The WHS response to HSA JCSG military value question number 1916
                    was unsupported. We were unable to fully validate the responses because
                    WHS provided inadequate methodologies and inadequate supporting
                    documentation for supervisory personnel, non-supervisory personnel, and
                    the usable square footage occupied by both.

               •    The WHS response to HSA JCSG military value question number 1917
                    was unsupported. WHS provided inadequate supporting documentation
                    for square footage and authorized personnel.

               •    The WHS response to HSA JCSG supplemental capacity data call
                    question number 4081 was partially supported. WHS did not provide any
                    supporting documentation for on-board contractors and square footage.
           Further, after our first review of the second data call responses, WHS made
           changes to JPAT 7 question numbers 1400, 1401, 1403, 1410, 1411, and 1413;
           however, WHS did not provide any supporting documentation. As of
           February 17, 2005, these six JPAT 7 responses remained unsupported.

           We did not make a determination as to whether responses to JPAT 7 question
           numbers 1405 through 1407 were supported, complete, and reasonable because
           OSD guidance allowed DWOs to contact the nearest installation to obtain
           responses. WHS used responses from Fort Myer Military Command and Defense
           Logistics Agency. In addition, we did not make a determination as to whether
           responses for HSA JCSG military value question numbers 1907 7 and 1908 8 were

7
    The question asked for the number of meetings between an organization’s senior officials, including flag
    officers, and senior officials from another organization located in the Washington, D.C., area.
                                                       7
           supported, complete, and reasonable. We could not verify the supporting
           documentation because it consisted of Microsoft Outlook calendars that could not
           be validated.

           Scenario Specific Data Calls. WHS responses to the scenario specific data calls
           were generally supported, complete, and reasonable once corrections were made.
           As of February 17, 2005, WHS had received 12 scenario specific data calls. Of
           these, we initially considered four scenario specific data calls partially supported.
           Subsequently, the HSA JCSG deleted scenario specific data call HSA-0106. As a
           result, we determined that no further action was required on behalf of WHS for
           HSA JCSG scenario specific data call HSA-0106. Therefore, as of February 17,
           2005, three scenario specific data calls were partially supported. Specifically:

               •    The WHS responses to scenario specific data call HSA-0053 were
                    partially supported. We were unable to fully validate WHS responses for
                    personnel because WHS provided an inadequate methodology. WHS
                    provided a methodology of how supporting documentation was collected.
                    WHS did not provide a documented methodology of how personnel
                    responses were calculated that would enable us to reconstruct the WHS
                    response. In addition, WHS did not provide adequate supporting
                    documentation for warehouse space or contractors and detailees.

               •    The WHS responses to scenario specific data call HSA-0099 were
                    partially supported. WHS did not provide adequate support for
                    square footage.

               •    The WHS responses to the non-numbered HSA JCSG scenario specific
                    data call were partially supported. WHS did not provide adequate support
                    for square footage and non-access controlled underground parking.

           In addition, for scenario specific data calls HSA-0029, HSA-0030, HSA-0031,
           HSA-0088, HSA-0096, HSA-0097, HSA-0098, and HSA-0099, WHS was unable
           to update its responses to the scenario data that the HSA JCSG pre-populated.
           Therefore, WHS uploaded memorandums for record for its responses to the OSD
           BRAC portal. We evaluated the responses and supporting documentation and
           identified those lacking reasonable support and those that were inaccurate or
           inconsistent with the supporting documentation. Based on our review and
           discussions with WHS BRAC officials, WHS corrected responses and agreed to
           amend the memorandums for record and obtain additional supporting
           documentation to correct issues identified during our review. We verified and
           concurred with the changes; however, as of February 17, 2005, WHS had not
           fully supported three scenario specific data calls. WHS stated that they uploaded
           the scenario specific data call responses to the OSD BRAC portal; however, we
           did not verify that the responses made it into the OSD BRAC portal. Subsequent
           to our site visit, the HSA JCSG may have replaced scenario specific data call


8
    The questions asked for the number of meetings between an organization’s senior officials, including flag
    officers, and members of Congress or their staffs.
                                                       8
     HSA-0106 with an alternative scenario specific data call; we did not review that
     response.


Internal Control Processes
     The WHS data collection processes for the capacity analysis, second, and
     scenario specific data calls generally complied with the OSD and DWO ICPs.
     However, we identified seven noncompliance issues. The DWO ICP properly
     incorporated and supplemented the OSD ICP. To evaluate WHS compliance with
     the ICPs for each of the data calls, we ensured that the DWO ICP properly
     incorporated and supplemented the OSD ICP and evaluated whether WHS
     completed nondisclosure agreements, appropriately marked and safeguarded
     BRAC data, and maintained complete BRAC data files.

     Compliance with ICPs. WHS did not fully comply with the DWO ICP
     procedures. The ICP procedures required that:

        •   supporting documentation be attached to certified question pages;

        •   tracking logs of BRAC 2005 documents be maintained;

        •   the answerer and trusted agent/reviewer sign each question page; and

        •   BRAC 2005 documents be marked as draft deliberative and/or sensitive.

     For the capacity analysis data call, we identified three noncompliance issues.
     Specifically, WHS did not appropriately mark supporting documentation or attach
     the support to certified question pages. In addition, WHS did not maintain logs to
     record each time the trusted agent worked with the WHS BRAC 2005 Master
     Record or made copies of WHS BRAC 2005 documents. WHS partially resolved
     the noncompliance issues by marking some of the supporting documentation
     appropriately. However, during our revalidation of the capacity data call, some of
     the supporting documentation remained unmarked.

     For the second data call, we identified two noncompliance issues. WHS did not
     appropriately mark supporting documentation and upon certification, each of the
     question pages was not signed and dated. WHS resolved the certification
     noncompliance by signing and dating the question pages. WHS also informed us
     that all BRAC documents had been appropriately marked, but we did not
     physically verify the application of the appropriate markings.

     During the scenario specific data calls, we identified two noncompliance issues.
     WHS did not appropriately mark the supporting documentation and did not
     provide certification letters for each of the 12 scenario specific data calls.
     Specifically, WHS provided a generic certification letter for 11 unidentified
     scenario specific data calls. Therefore, we were unable to determine which 11 of
     the 12 scenario specific data calls were actually certified. WHS partially resolved

                                          9
          the certification issues by providing adequate certification letters containing
          identification numbers for 11 9 scenario specific data calls. However, as of
          April 5, 2005, WHS had not provided a certification letter for scenario specific
          data call HSA-0106. We consider the lack of the appropriate markings,
          signatures, and dates to be immaterial noncompliance issues with the internal
          control plans because WHS completed non-disclosure agreements and
          safeguarded BRAC data. In addition, HSA JCSG deleted scenario specific data
          call HSA-0106 and we determined that no further action was required on behalf
          of WHS.

          Completeness of ICP. The DWO ICP outlined internal control procedures
          designed to ensure the accuracy, completeness, and integration of all information
          and analytical processes upon which WHS was to submit documents, data, and
          information used in the BRAC 2005 process. The DWO ICP established
          BRAC 2005 responsibilities of OSD DA&M and control mechanisms to
          safeguard WHS BRAC information. The ICP detailed the requirements for
          verifying the accuracy of data and information. In addition, the ICP identified
          required documentation to justify changes made to data and information received
          from subordinate levels of the organization. Specifically, the ICP included
          direction on the completion of nondisclosure agreements; and the collection,
          marking, safeguarding, and maintenance of BRAC data. The DWO ICP was
          updated August 2, 2004, to reflect changes to the documentation requirements for
          DWO BRAC 2005 ICP implementation. In addition, WHS updated its appendix
          to the DWO ICP during the second data call to reflect changes to physical
          security controls because WHS trusted agent responsibilities were transferred
          from the WHS Planning and Evaluation Directorate to the Administration and
          Program Support Directorate.


Conclusion
          WHS responses to the BRAC 2005 data calls were generally supported, complete,
          and reasonable once corrections were made. However, for the capacity analysis
          data call, 9 of the 97 responses were partially supported and 3 responses were
          unsupported. For the second data call, 2 of the 71 responses were partially
          supported and 9 were unsupported. As of February 17, 2005, 3 of the 12 scenario
          data calls were partially supported. We cannot determine if these partially
          supported or unsupported questions have a material effect on the BRAC 2005
          analysis for WHS. The WHS data collection processes for the each of the data
          calls generally complied with the OSD and DWO ICPs, and the DWO ICP
          properly incorporated and supplemented the OSD ICP. WHS had seven
          immaterial noncompliance issues with the ICP, which should not impact the
          integrity of the WHS data for use in BRAC 2005 analysis.


9
    Scenario specific data calls HSA-0029, HSA-0030, HSA-0031, HSA-0047, HSA-0053, HSA-0088,
    HSA-0096, HSA-0097, HSA-0098, HSA-0099, and one non-numbered HSA JCSG scenario specific
    data call.
                                                10
    We discussed the results of the data call submissions and ICP reviews with WHS
    upon completion of each data call. WHS concurred with our findings, processed
    change adjudications, and agreed to continue working to correct responses and
    collect additional supporting documentation. WHS also agreed to appropriately
    mark supporting documentation.

    We followed up with WHS on April 5, 2005, and determined that no additional
    changes had been made and no additional supporting documentation had been
    collected for partially supported or unsupported responses. Therefore, as of
    April 5, 2004, WHS responses remained partially supported for the following
    questions:

               •   capacity analysis data call question numbers 211, 212, 310, 446,
                   461, 462, 480, 482, and 621;

               •   HSA JCSG military value question number 1905;

               •   HSA JCSG supplemental capacity question number 4081; and

               •   scenario specific data calls HSA-0053, HSA-0099, and one
                   non-numbered HSA JCSG scenario specific data call.

    The WHS responses remained unsupported for the following questions:

               •   capacity analysis data call question numbers 283, 292, and 298;

               •   HSA JCSG military value question numbers 1916 and 1917;

               •   JPAT 7 question numbers 1400, 1401, 1403, 1410, 1411, and
                   1413; and

               •   COBRA question number 1501.

Management Comments on the Finding and Audit Response
    Although not required, the Director, WHS provided the following comments on
    the draft report. For the full text of the WHS comments, see the Management
    Comments section of the report.

    WHS Comments. The Director, WHS stated that the draft report contained two
    errors. The Director stated that supporting documentation for COBRA question
    number 1501 was available for DoD OIG review during the February 17, 2005,
    site visit. The Director also stated that the WHS methodology used to collect the
    personnel information was included in a memorandum for record and attached to
    scenario specific data call HSA-0053.

    Audit Response. We inquired during our scenario data call site visits whether
    additional revisions and supporting documentation had been submitted regarding
    unresolved issues for the second data call. The WHS trusted agent stated that

                                        11
responses for JPAT 7 questions and HSA JCSG military value question number
1905 had been revised. We do not dispute that WHS may have had supporting
documentation for COBRA question number 1501 during our scenario data call
site visits. However, WHS did not inform us that supporting documentation had
been obtained for COBRA question number 1501. Therefore, during our scenario
data call site visits, we did not revalidate COBRA question number 1501. In
addition, we corrected our report to reflect that WHS provided an inadequate
methodology for scenario specific data call HSA-0053. WHS provided a
methodology of how supporting documentation was collected. WHS did not
provide a documented methodology of how personnel responses were calculated
that would enable us to reconstruct the WHS response.




                                 12
Appendix A. Scope and Methodology
   We evaluated the validity, integrity, and supporting documentation of WHS
   BRAC 2005 data. The evaluation included comparing question responses to
   supporting documentation and reviewing “Not Applicable” responses to
   determine whether responses were reasonable. Questions required either an
   answer or a “Not Applicable” response; a “Not Applicable” response was
   provided when either OSD DA&M or WHS determined that the question did not
   apply to WHS. However, we did not verify that the responses made it into the
   OSD Database. We evaluated whether the DWO ICP incorporated and
   supplemented the requirements of the OSD ICP. We also evaluated the WHS
   data collection procedures to determine whether they complied with the
   applicable ICP procedures to include completing nondisclosure agreements; and
   collecting, marking, safeguarding, and maintaining BRAC data. In addition, we
   interviewed the personnel responsible for answering, reviewing, preparing, and
   certifying the responses to the data call questions.
   Capacity Analysis Data Call. A January 23, 2004, OSD DA&M memorandum
   directed WHS to answer 77 of the 752 capacity analysis data call questions
   identified as applicable to DWOs by HSA JCSG. HSA JCSG identified an
   additional two questions as applicable for WHS. OSD DA&M also directed
   WHS to review the remaining questions to determine if any other questions were
   applicable to WHS. WHS reviewed the 77 questions and the remaining 675
   questions. WHS identified only 39 of the 77 questions and an additional 20 of the
   remaining questions as applicable for WHS. As a result, WHS provided either a
   response or a “Not Applicable” response to 97 capacity analysis data call
   questions. We did not validate the OSD DA&M or WHS selection process or the
   questions not selected.

   We evaluated the WHS responses to the 97 capacity analysis data call questions.
   We issued a site memorandum to summarize the results. Specifically, we
   reviewed the responses and supporting documentation to the following questions:

          •   question numbers 40, 198, 199, 205, 210 through 212, 219, 220, 226,
              227, 236, 246, 265, 266, 279, 283, 292, 294, 298, 310, 311, 347, 350,
              352, 354 through 356, 358, 360, 362 through 366, 369, 371, 376, 379,
              382, 383, 385 through 387, 393, 446 through 448, 461, 462, 466, 468,
              469, 471, 478, 480 through 482, and 621 with a response; and




                                      13
                   •    question numbers 313 through 329, 348, 349, 351, 353, 357, 359, 361,
                        367, 368, 370, 372 through 375, 377, 378, 380, 381, 384, 388, 464,
                        and 582 with a “Not Applicable” response.

           We revalidated outstanding issues from the capacity analysis data call. During
           our revalidation, the HSA JCSG informed us that WHS responses to 21 1
           previously partially supported and unsupported finance and accounting and
           civilian personnel office questions were no longer needed or used for its analysis.
           We determined that no further action was required on behalf of WHS for those 21
           questions. Therefore, we evaluated the responses and supporting documentation
           for the remaining 28 questions. We issued a site memorandum to summarize the
           results of our revalidation. Specifically, we revalidated the responses and
           supporting documentation for the following initial capacity analysis data call
           questions:

                   •    question numbers 205, 210 through 212, 219, 220, 226, 236, 246, 266,
                        279, 283, 292, 294, 298, 310, 446 through 448, 461, 462, 468, 469,
                        480, 482, and 621 with a response; and

                   •    question numbers 40 and 311 with a “Not Applicable” response.

           Second Data Call. WHS received guidance from OSD DA&M on June 18,
           2004; June 23, 2004; and July 22, 2004, directing it to answer 26 HSA JCSG
           military value questions; 15 HSA JCSG supplemental capacity questions; 8
           COBRA questions; and 20 JPAT 7 questions. WHS reviewed the questions and
           responded to 28 HSA JCSG military value questions, 14 HSA JCSG
           supplemental capacity questions, 1 Education and Training JCSG supplemental
           capacity question, 8 COBRA questions, and 20 JPAT 7 questions. WHS
           complied with the requirement to have all leased facilities answer JPAT 7 and
           COBRA data call questions. WHS leased facilities include offices at Crystal
           Gateway 1, 2, and 3; Crystal Mall 2, 3, and 4; Crystal Gateway North; 1401
           Wilson Boulevard; 400 Army Navy Drive; Rosslyn Plaza North; and the Polk
           Building in Arlington, Virginia; Hoffman I, Alexandria, Virginia; and Skyline VI,
           Falls Church, Virginia.

           We evaluated the WHS responses to 71 second data call questions. We issued a
           site memorandum to summarize the results. Specifically, we reviewed the
           responses and supporting documentation for the following questions:

                        •   JPAT 7 question numbers 1400 through 1417, 1420, and 1421; 2
                            COBRA question numbers 1501 and 1505; HSA JCSG military
                            value question numbers 1900, 1904, 1905, 1907 through 1913,
                            1916 through 1919, 1921, 1926, 1947, 1950, 1953, and 1956;

1
    Question numbers 347, 352, 358, 360, 362 through 366, 369, 371, 376, 379, 382, 383, 385 through 387,
    393, 478, and 481.
2
    The JPAT 7 group made the decision to replace JPAT 7 questions 1418 and 1419 with JPAT 7 questions
    1420 and 1421.
                                                    14
               Education and Training JCSG supplemental capacity question
               number 4000; and HSA JCSG supplemental capacity question
               numbers 4080, 4081, and 4099 through 4103 with a response; and

           •   COBRA question numbers 1500, 1502 through 1504, 1506, and
               1507; HSA JCSG military value question numbers 1914, 1915,
               1923, 1925, 1927, 1949, 1954, and 1957; HSA JCSG supplemental
               capacity question numbers 4079, 4096, and 4242 through 4246
               with a “Not Applicable” response.

We did not make a determination as to whether responses for HSA JCSG military
value question numbers 1907 and 1908 were supported, complete, and reasonable.
We could not verify the supporting documentation because it consisted of
Microsoft Outlook calendars that could not be validated. In addition, we did not
make a determination as to whether responses to JPAT 7 question numbers 1405
through 1407 were supported, complete, and reasonable because OSD guidance
allowed DWOs to contact the nearest installation to obtain responses. WHS used
responses from Fort Myer Military Command and Defense Logistics Agency.

Scenario Specific Data Calls. As of February 17, 2005, WHS had received
12 scenario specific data calls from HSA JCSG. We evaluated the responses and
supporting documentation to HSA JCSG scenario data calls HSA-0029,
HSA-0030, HSA-0031, HSA-0047, HSA-0053, HSA-0088, HSA-0096,
HSA-0097, HSA-0098, HSA-0099, HSA-0106, and one non-numbered scenario
data call. In addition to reviewing the scenario specific data call responses, we
followed up on outstanding issues from the second data call. We validated
changes to JPAT 7 question numbers 1400 through 1403, 1405, 1406, 1410, 1411,
and 1413, and HSA JCSG military value question number 1905.

Subsequent to our site visit, HSA JCSG may have replaced scenario specific data
call HSA-0106 with an alternative scenario specific data call; we did not review
that response.

We performed this audit from April 2004 through April 2005 in accordance with
generally accepted government auditing standards.
Use of Computer-Processed Data. Because of time constraints, we did not test
the accuracy of the computer-processed data used to support the answers to data
call questions. Potential inaccuracies in the data could impact the results.
However, the WHS BRAC 2005 data were certified as accurate and complete to
the best of the certifier’s knowledge and belief. We did not review the data-
gathering tool used by WHS during the second data call.

Government Accountability Office High-Risk Areas. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the Management of Federal Real Property and DoD Support
Infrastructure Management high-risk areas.



                                   15
Management Control Program Review
    We did not review the WHS management control program because its provisions
    were not deemed applicable to the one-time data collection process. However, we
    evaluated the WHS internal control procedures for preparing, submitting,
    documenting, and safeguarding information associated with the BRAC 2005 data
    calls, as directed by the applicable ICPs. Specifically, we reviewed procedures
    that WHS used to develop, submit, and document its data call responses. In
    addition, we reviewed the controls implemented to safeguard the premature
    disclosure of WHS BRAC data before responses were forwarded to the OSD
    BRAC Office. Internal control procedures were adequate as they applied to the
    audit objective, and WHS generally complied with the applicable ICPs.
    However, WHS had seven immaterial noncompliance issues with the ICP (See
    finding for additional details).


Prior Coverage

    During the last 5 years, the DoD Inspector General issued three site
    memorandums related to WHS BRAC 2005.

    Site Memorandums

    DoD IG Memorandum, “Audit Revalidation on the Capacity Analysis Data Call
    Submission from Washington Headquarters Services for Base Realignment and
    Closure 2005,” February 23, 2005

    DoD IG Memorandum, “Audit on the Second Data Call Submission from the
    Washington Headquarters Services for Base Realignment and Closure 2005,”
    December 6, 2004
    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    from Washington Headquarters Services for Base Realignment and Closure
    2005,” June 24, 2004




                                        16
Appendix B. Report Distribution

Office of the Secretary of Defense
     Director, Base Realignment and Closure (Installations and Environment)
     Director, Washington Headquarters Services

Non-Defense Federal Organizations
     Government Accountability Office




                                        17
Washington Headquarters Services Comments
                                            Final Report
                                             Reference




                                            Revised




                    19
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Contract Management prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed
below.

Richard B. Jolliffe
Deborah L. Culp
Lisa M. Such
Kandy T. Adams
Dana K. Johnson
Marcia L. Kilby
Tomica Q. May
Curtis P. Greene
Angela M. Kendera
Miwon Kim
Scott G. Stadmueller
Jeffrey L. Steinbauer
Richard O. Williams
Justin C. Husar
Deanne B. Curry
Phillip M. Faller
Jordan P. Guinto
Michael T. Banach
William M. Revelle
Brandy L. Smith
Meredith H. Johnson
